 REPORT ON THE AIR TRAFFIC
ORGANIZATION’S MANAGEMENT
CONTROLS OVER CREDIT HOURS
    Federal Aviation Administration

     Report Number: AV-2006-050
      Date Issued: June 21, 2006
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Air Traffic                         Date:    June 21, 2006
           Organization’s Management Controls Over
           Credit Hours
           Federal Aviation Administration
           AV-2006-050
  From:                                                           Reply to
           David A. Dobbs                                         Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Federal Aviation Administrator

           This is our report on management controls over the earning and use of credit hours
           within the Air Traffic Organization (ATO). Our objective was to determine if the
           ATO’s management controls over credit hours are sufficient to ensure that credit
           hours are justified, necessary, and in the best interest of the Government. This
           review was conducted between June 2005 and May 2006 and included visits to the
           Federal Aviation Administration’s (FAA) Headquarters, 3 ATO Service Areas,
           and 15 terminal and en route air traffic control facilities. Exhibit A contains
           details on the scope and methodology we used in conducting this review.
           Exhibit B lists the facilities we visited. This performance audit was conducted in
           accordance with Generally Accepted Government Auditing Standards as
           prescribed by the Comptroller General of the United States.

           BACKGROUND
           The Office of Personnel Management (OPM) defines credit hours as hours that an
           employee elects to work with supervisory approval in excess of the employee’s
           basic work requirement under a flexible work schedule. OPM also established
           Government-wide policies and procedures for credit hours including controls over
           converting credit hours into pay, time limits on the use of credit hours, and rules
           governing specifically when credit hours can be earned. Under these controls,
           full-time employees may carry a maximum of 24 credit hours from one pay period
           to another.
                                                                                  2


In 1998, FAA entered into a collective bargaining agreement with the National Air
Traffic Controllers Association (NATCA) allowing air traffic controllers to earn
credit hours in conjunction with any shift on a recurring basis. However, the
agreement also eliminated many of the policies and requirements over the earning
and use of credit hours established by OPM, including the 24-hour limit on the
amount of credit hours that could be carried from one pay period to the next. In
1999, FAA extended the provisions of the agreement concerning credit hours to
non-bargaining air traffic control staff specialists and first-level supervisors as
well.

RESULTS IN BRIEF
Since 1998, the number of credit hours earned by ATO employees per year has
more than doubled from 503,000 hours in fiscal year (FY) 1998 to nearly
1.2 million hours in FY 2005 or the equivalent of approximately 577 full-time
positions. We found that despite the large number of credit hours being earned,
the ATO had no assurances that credit hours were justified, necessary, or in the
best interest of the Government because the ATO’s management controls over the
earning and use of credit hours were insufficient. Specifically, the ATO had no
national policies or procedures over the earning and use of credit hours, which
resulted in a myriad of local credit hour policies—many of which severely limited
management’s ability to determine if and when credit hours were earned or used.

We also found that as a result of the ATO’s departure from OPM’s Government-
wide policies and procedures in 1998, controllers were able to accrue large
balances of unused credit hours. At the end of FY 2005, the balance of unused
credit hours was nearly 648,000 hours (or the equivalent of over 311 full-time
positions) with an estimated monetary value of over $36.5 million. We were
concerned that the large accrued balance could become a significant liability to the
Agency as 73 percent of its controller workforce (or nearly 10,000 controllers)
becomes eligible to retire over the next 10 years.

During our review, FAA and NATCA began negotiating a new collective
bargaining agreement, which included bargaining over the ATO’s policies
governing the earning and use of credit hours, but they were unable to reach a
collective agreement. After declaring an impasse and submitting all open articles
to Congress for a 60-day review (as required by 1996 personnel reform legislation)
on June 5, 2006, FAA imposed its last offer for all unresolved issues and
unilaterally implemented a new contract with the union. However, FAA plans to
phase in the numerous articles in stages, and it will be several months before the
terms and conditions of the new contract are fully implemented. Article 34 of the
contract reinstates the 24-hour cap on the amount of credit hours that can be
earned and carried over from one pay period to another and specifically states that
                                                                                 3


any credit hour balances in excess of 24 hours will have no cash value when the
employee leaves the Agency.

While Article 34 addresses the potential liability of earning and accruing large
balances of credit hours, it does not address our concerns for ensuring that future
credit hours earned are necessary, justified, and in the best interest of the
Government. The numerous local policies we observed allowed controllers to
earn credit hours in conjunction with any shift, and these were examples of credit
hours earned that in our opinion were neither justified nor necessary.

In June 2005, the Vice President for En Route and Oceanic Services issued a
memorandum to facility managers requesting that they review all recurring credit
hour agreements at their locations for their effectiveness and efficiency as
management tools. The memorandum also requested that all facility managers
report back their findings and planned actions to resolve inefficient or
unproductive agreements by August 2005. A similar memorandum was issued by
the Vice President for Terminal Services in August 2005.

Identifying agreements that need to be renegotiated or rescinded and taking the
appropriate corrective actions would address our concerns over ensuring that
credit hours earned are necessary, justified, and in the best interest of the
Government. However, FAA needs to verify that appropriate actions have been
taken to address inefficient or unproductive agreements identified by facility
managers. Therefore, we recommend that FAA verify the specific actions taken
by facility managers to resolve inefficient or unproductive recurring credit hour
agreements, orders, or policies identified in response to the requests of the Vice
Presidents for En Route and Oceanic Services and Terminal Services.


FINDINGS
Improvements Are Needed in the ATO’s Management Controls
Over the Earning and Use of Credit Hours
Since 1998, ATO employees have earned over 8.1 million credit hours with an
estimated monetary value of nearly $390 million. During the same time period,
ATO employees used over 7.5 million credit hours valued at over $364 million.
As shown in Figure 1, the number of credit hours earned per year more than
doubled from 503,000 hours in FY 1998 to nearly 1.2 million hours in FY 2005 or
the equivalent of approximately 577 full-time positions.
                                                                                                                                     4



                                                   Figure 1. ATO Credit Hours Earned and Used
                                                               (FY 1998 - FY 2005)

                         1,500
                                              Credit Hours Earned
   Credit Hours (in thousands)
                                                                                                    1,263
                                              Credit Hours Used                          1,210
                         1,250                                                1,149                            1,159      1,162
                                                                                                       1,205
                                                                    1,006                   1,144                 1,140
                         1,000                                                   1,048                                       1,067


                                                     693                869
                                 750
                                       503
                                                           595
                                 500
                                             493


                                 250


                                   0
                                       1998           1999           2000      2001       2002       2003       2004       2005
                                                                                 Fiscal Years



We found that despite the large number of credit hours being earned, the ATO had
no assurances that credit hours were justified, necessary, or in the best interest of
the Government because the ATO’s management controls over the earning and
use of credit hours were insufficient. Specifically, the ATO had no national
policies or procedures over the earning and use of credit hours, which resulted in a
myriad of local credit hour policies—many of which severely limited
management’s ability to determine if and when credit hours were earned or used.
For instance, we found that 12 of the 15 air traffic control facilities we visited
either had agreements with the union or facility orders that allowed controllers to
earn credit hours on a recurring basis without prior management approval or
regard for the facility’s actual operational needs. For example,

   • At the Jacksonville En Route Center, managers and union officials had
     entered into a Memorandum of Understanding that authorized controllers to
     earn credit hours at the beginning or end of a regular shift, provided that the
     total operational time on duty did not exceed 10 hours.

In contrast, at some facilities we visited, we found that managers had made a
concerted effort to improve controls over credit hours. For example,

   • In July 2004, facility managers at the New York TRACON eliminated prior
     policies allowing the “blanket approval” of credit hours and instead
     implemented a new policy requiring that all requests to earn credit hours
                                                                                                                      5


                           must first be approved by an operations manager. Since implementing this
                           policy, credit hour balances at the facility have been reduced by nearly
                           37 percent.

   • At the Potomac TRACON, managers require controllers to work on an
     operational position for a minimum of 80 percent of the time while they are
     earning credit hours. Managers at the facility also limit the number of
     controllers that can earn credit hours to a maximum of one employee per
     area per day shift and a maximum of two employees per area per evening
     shift.

At locations we visited, facility managers told us that they allowed controllers to
earn credit hours as a way to reduce overtime costs. However, we found that the
increased use of credit hours did not reduce overtime usage. For example, we
found that credit hours within the ATO increased from 503,000 earned in FY 1998
to 1,162,000 earned in FY 2005. During the same period, overtime hours were not
reduced but actually increased, rising from 273,000 earned in 1998 to
557,000 earned in 2005 (see Figure 2).

                                        Figure 2. Credit Hours Earned vs. Overtime Hours
                                                       (FY 1998 - FY 2005)
                          1,500
                                        Credit Hours Earned
                                        Overtime Hours                                  1,263
                                                                              1,210
                          1,250                                     1,149                         1,159     1,162
   Hours (in thousands)




                                                          1,006
                          1,000
                                                                                  780
                           750                693                                           655
                                                              547       558                           553       557
                                  503               480
                           500
                                    273
                           250


                             0
                                  1998         1999        2000      2001      2002      2003      2004      2005
                                                                      Fiscal Years



ATO Employees Have Accumulated a Significant Balance of
Unused Credit Hours
During our review, we also found that as a result of the ATO’s departure from
OPM’s Government-wide policies and procedures in 1998, controllers were able
to accrue large balances of unused credit hours. As shown in Figure 3, in
FY 1998, ATO employees had about 74,000 hours of unused credit hours (or the
                                                                                                    6


equivalent of approximately 36 full-time positions). However, by the end of
FY 2005, the balance of unused credit hours had grown to nearly 648,000 hours
(or the equivalent of over 311 full-time positions) with an estimated monetary
value of over $36.5 million.

                                       Figure 3. ATO Credit Hour Accrued Balance
                                                   (FY 1998 - FY 2005)
                                     800

                                     700                                                     648
       Credit Hours (in thousands)




                                     600                                       534    552

                                     500                                475
                                                                409
                                     400
                                                         308
                                     300

                                     200          171

                                            74
                                     100

                                      0
                                           1998   1999   2000   2001   2002    2003   2004   2005
                                                                Fiscal Years



Our review of credit hours at facilities found numerous instances where individual
controllers were carrying significant credit hour balances, some with balances of
over 1,000 hours, or the equivalent of nearly 25 weeks of annual leave. We were
concerned that these large accrued balances could become a financial liability to
the Agency should controllers with balances of unused credit hours leave the
Agency and seek payment for those hours. The large accrued balances could
become a significant liability to the Agency as 73 percent of its controller
workforce (or nearly 10,000 controllers) becomes eligible to retire over the next
10 years.


New Contract Terms and Steps Taken by the ATO During Our
Review Could Significantly Improve Controls Over Credit Hours
During our review, FAA and NATCA entered into negotiations for a new
collective bargaining agreement, which included bargaining over the ATO’s
policies governing the earning and use of credit hours, but they were unable to
reach a collective agreement. After declaring an impasse and submitting all open
articles to Congress for a 60-day review (as required by 1996 personnel reform
legislation) on June 5, 2006, FAA imposed its last offer for all unresolved issues
and unilaterally implemented a new contract with the union. However, FAA plans
                                                                                   7


to phase in the numerous articles in stages, and it will be several months before the
terms and conditions of the new contract will be fully implemented.

Article 34 of the new contract specifically addresses credit hours. In Article 34,
FAA and NATCA agreed to reinstate the 24-hour cap on the amount of credit
hours that can be earned and carried over from one pay period to another. The
article further states that employees with credit hour balances in excess of
24 hours will be permitted to carry over that balance but will not be eligible to
earn credit hours until their balance has been reduced to 24 hours or less. FAA
and NATCA also agreed that any credit hour balances in excess of 24 hours will
have no cash value when the employee leaves the Agency. Because the new
contract will be phased in, we are requesting that FAA provide us with an
expected implementation date for Article 34.

While Article 34 addresses the potential liability of allowing employees to earn
and accrue large balances of credit hours, it does not address our concerns for
ensuring that future credit hours earned are necessary, justified, and in the best
interest of the Government. The numerous local policies we observed allowed
controllers to earn credit hours in conjunction with any shift, and these were
examples of credit hours earned that in our opinion were neither justified nor
necessary.

In June 2005, the Vice President for En Route and Oceanic Services issued a
memorandum to facility managers requesting that they review all recurring credit
hour agreements at their locations for their effectiveness and efficiency as
management tools. The memorandum also requested that all facility managers
report back their findings and planned actions to resolve inefficient or
unproductive agreements by August 2005. A similar memorandum was issued by
the Vice President for Terminal Services in August 2005.

Identifying agreements that need to be renegotiated or rescinded and taking the
appropriate corrective actions would address our concerns for ensuring that credit
hours earned are necessary, justified, and in the best interest of the Government.
However, FAA needs to verify that appropriate actions have been taken to address
inefficient or unproductive agreements identified by facility managers. Therefore,
we recommend that FAA verify the specific actions taken by facility managers to
resolve inefficient or unproductive recurring credit hour agreements, orders, or
policies identified in response to the requests of the Vice Presidents for En Route
and Oceanic Services and Terminal Services.
                                                                                   8




RECOMMENDATIONS
We recommend that the Federal Aviation Administrator:

   1. Verify the specific actions taken by facility managers to resolve inefficient
      or unproductive recurring credit-hour agreements, orders, or policies
      identified in response to the requests of the Vice Presidents for En Route
      and Oceanic Services and Terminal Services.

   2. Provide us with a list of the actions taken and a specific date for
      implementing Article 34 of the new contract.


MANAGEMENT COMMENTS
A copy of this report was coordinated with FAA officials from the ATO En Route
and Terminal Services, Human Resources, and Labor Relations divisions. Those
officials agreed with the facts as presented in our report and, in general, concurred
with our findings and recommendations.


ACTIONS REQUIRED
Within 30 calendar days, please provide us with a list of the specific actions taken
by facility managers to resolve inefficient or unproductive recurring credit hour
agreements, orders, or policies identified in response to the requests of the Vice
Presidents for En Route and Oceanic Services and Terminal Services. In addition,
within 10 business days, please provide us with expected implementation date for
Article 34.

We appreciate the cooperation and assistance provided by ATO officials and staff.
If you have any questions or need further information, please contact me at (202)
366-0500 or Dan Raville, Program Director, at (202) 366-1405.

                                         #

cc: FAA Deputy Administrator
    ATO Chief Operating Officer
    FAA Chief of Staff
    Anthony Williams, ABU-100
                                                                                 9




EXHIBIT A. SCOPE AND METHODOLOGY

This performance audit was conducted in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts. We conducted this review
between June 2005 and May 2006.

The credit hour data used in this report were extracted from the FAA Integrated
Personnel and Payroll System (IPPS). To determine the reliability of these data,
we reviewed an independent auditor’s report conducted by KPMG on information
technology controls over FAA and third party systems and applications (including
IPPS). The audit report states that the reportable conditions were not believed to
be material weaknesses. As a second check on the data reliability, we compared
the data from IPPS with data from the Staffing and Cost Analysis Tool (SCAT) at
local facilities. No material discrepancies in data from the two systems were
found.

To determine if FAA’s management controls over credit hours were effective, we
interviewed FAA Headquarters personnel and facility managers concerning their
abilities to control when credit hours are earned. We also reviewed policies and
practices governing the earning and use of credit hours at the Headquarters,
service area, and facility level of the ATO. Finally, we reviewed Memorandums of
Understanding, facility orders, and other agreements granting blanket authority for
controllers to earn credit hours on a recurring basis.

To determine the magnitude of credit hours earned and used within ATO, we
extracted credit hour data from IPPS for the past 8 years. At the facilities we
visited, we also extracted credit hour data from SCAT for that facility’s employees
to determine the amount of credit hour balances that existed. Finally, we
compared the trends in the use of overtime hours for the past 8 years to the trends
in the earning of credit hours.

To determine whether credit hours were justified, necessary, and in the best
interest of the Government, we analyzed the earning and use of credit hours by
facility to determine whether the credit hours were earned (1) for work performed,
(2) during periods of operational need, or (3) on a recurring basis without
management approval.




Exhibit A. Scope and Methodology
                                                          10




EXHIBIT B. FACILITIES VISITED

Eastern Terminal Service Area
   •   Service Area Headquarters
   •   Atlanta Terminal Radar Approach Control (TRACON)
   •   New York TRACON
   •   Potomac TRACON
   •   Jacksonville Air Traffic Control Tower (ATCT)
   •   John F. Kennedy ATCT
   •   LaGuardia ATCT
   •   Miami ATCT

Eastern En Route Service Area
   •   Service Area Headquarters
   •   Atlanta Center
   •   Hilliard Center
   •   Miami Center
   •   New York Center
   •   Washington Center

Central Terminal Service Area
   • Dallas/Fort Worth TRACON
   • Dallas/Fort Worth ATCT

Central En Route Service Area
   • Service Area Headquarters
   • Dallas/Fort Worth Center




Exhibit B. Facilities Visited
